               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Land Optimization – Central Illinois
                  District

                       Audit Report




                                         September 19, 2012
Report Number DA-AR-12-001
                                                                       September 19, 2012

                                             Land Optimization – Central Illinois District

                                                            Report Number DA-AR-12-001




BACKGROUND:
The U.S. Postal Service is one of the            WHAT THE OIG FOUND:
largest real estate owners in the U.S. It        The Postal Service can improve the
owns more than 8,600 facilities on more          process for identifying and disposing of
than 950 million square feet (SF) of             excess land space. We identified
land, with the Central Illinois District         4,892,583 SF of excess land space (or
owning 156 facilities with over 20 million       49 percent of the total square footage)
SF of land. The Postal Service                   at the sites visited. We attributed this
maintains this land space at facilities to       excess to 10 Postal Service-owned
accommodate operations and provide               properties that have space in excess of
customers and employees with parking             what is needed based on current
space. There have been significant               staffing and mail volume. By selling the
reductions in mail volume and employee           identified excess land space, the Postal
staffing in recent years. From fiscal            Service has a one-time opportunity to
years 2007 to 2010, mail volume in the           realize at least $42,337,385 of
Central Illinois District decreased 17           increased revenue in the Central Illinois
percent. The Postal Service is                   District.
attempting to optimize and dispose of
excess facilities.                               WHAT THE OIG RECOMMENDED:
                                                 We recommended that management
Through optimization efforts, the Postal         initiate actions to sell properties that are
Service has the ability to reduce excess         not needed in the Central Illinois District,
real property by selling property, leasing       review and update policies regarding
Postal Service-owned property, and               land space to reflect current operational
subleasing or reassigning leased                 needs, and establish a program for
property. The Postal Service can also            regularly reviewing exterior land space
use these options to optimize land               at Postal Service facilities in the Central
space. Our objective was to identify             Illinois District.
opportunities for the Postal Service to
optimize existing land to align with the         Link to review the entire report
current operating environment.
September 19, 2012

MEMORANDUM FOR:             JACQUELINE KRAGE STRAKO
                            VICE PRESIDENT, OPERATIONS, GREAT LAKES AREA

                            TOM A. SAMRA
                            VICE PRESIDENT, FACILITIES




FROM:                       Michael A. Magalski
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Audit Report – Land Optimization - Central
                            Illinois District
                            (Report Number DA-AR-12-001)

This report presents the results of our audit of Land Optimization - Central Illinois
District (Project Number 11YG033DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Facilities, Environmental, and Sustainability, or me at 703-248-2100.

Attachments

cc: Megan Brennan
    Peter R. Allen
    Corporate Audit and Response Management
Land Optimization –                                                                                            DA-AR-12-001
 Central Illinois District



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Excess Exterior Space .................................................................................................... 1

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 9

     Background ................................................................................................................ 9

     Objective, Scope, and Methodology ........................................................................ 10

     Prior Audit Coverage................................................................................................ 12

Appendix B: Monetary Impacts ..................................................................................... 13

Appendix C: Management’s Comments ........................................................................ 15
Land Optimization –                                                                                  DA-AR-12-001
 Central Illinois District



Introduction

This report presents the results of our self-initiated audit addressing land optimization in
the Central Illinois District (Project Number 11YG033DA000). Our objective was to
identify opportunities for the U.S. Postal Service to optimize existing land to align with
the current operating environment. This self-initiated audit addresses operational risk.
See Appendix A for additional information about this audit.

Postal Service facilities officials are responsible for tracking useable excess space in
the Postal Service inventory.1 Area or other authorized personnel can approve a
property as being excess to Postal Service needs and are required to submit a written
recommendation to Realty Asset Management 2 to dispose of the property.

The Central Illinois District owns 156 facilities with more than 20 million square feet (SF)
of land. From fiscal years (FYs) 2007 to 2010, mail volume in the Central Illinois District
decreased 17 percent. During the same period, employee complement in the Central
Illinois District decreased 16 percent.

According to the Postal Service, it realized $180 million in revenue during FY 2010 from
reviews of building and land properties no longer necessary to meet operational needs.3
Given the financial challenges the Postal Service is facing, the agency has an
opportunity to reevaluate its land needs and further capitalize on revenue opportunities
by reducing excess land space.

Conclusion

The Postal Service can improve procedures for identifying and disposing of excess land
space. Ten properties have excess land space of 4,892,583 SF based on Postal
Service policy. These properties represent 49 percent of the total square footage of the
sites visited.4 By initiating disposal action for excess land space, the Postal Service has
a one-time opportunity to realize at least $42,337,385 in increased revenue in the
Central Illinois District.

Excess Exterior Space

Ten facilities we reviewed had land space in excess of what is needed based in current
staffing and mail volume, as shown in Table 1. Land space for the number of authorized


1
   Administrative Support Manual (ASM) 13, Section 517, dated July 1999, updated with Postal Bulletin revisions
through April 19, 2012.
 2
   Postal Service Headquarters National Realty Asset and Lease Management team administers programs and
provides project support services for Postal Service-leased and owned properties.
3
   U.S. Postal Service 2010 Comprehensive Statement on Postal Operations. page 29.
4
   The large amount of land square footage at these 10 sites represent the best opportunity for identifying excess
space.
                                                           1
Land Optimization –                                                                      DA-AR-12-001
 Central Illinois District


parking spaces5 is based on factors affected by mail volume, including the number of
business mailers, carrier routes, and peak hour employees.6 Other factors considered
were the number of rented Post Office (PO) Boxes and calculated earned7 retail
workstations, which is based on mail volume.

                             Table 1 – Sampled Sites and Excess Land

                                         Site Total               Total Excess           Percentage of
                                          Square                 Square Footage        Excess to Total Site
             Site                        Footage                   Identified           Square Footage
Carol Stream Processing &                   2,746,892                   1,210,838                      44%
Distribution Center (P&DC)
Chicago Network Distribution                 2,054,000                  1,005,685                                 49
Center (NDC)
Fox Valley P&DC                              1,650,488                    921,849                                 56
South Suburban P&DC                          1,182,985                    404,000                                 34
Hanover Carrier Annex                          592,000                    355,205                                 60
Willowbrook Carrier Annex                      460,637                    281,362                                 61
Aurora Main Post Office                        458,175                    219,540                                 48
(MPO)
Naperville MPO                                  441,771                   273,161                             62
Oak Lawn Moraine Valley                         382,000                   190,363                             50
Chicago Heights                                  30,580                    30,580                            100
(additional parking)
Total                                        9,999,528                  4,892,583                           49%
Source: U.S. Postal Service Office of Inspector General (OIG).

   The Carol Stream P&DC has 1,210,838 SF of excess land space, which includes a
    helipad and softball field the Postal Service constructed for residents of the Village of
    Carol Stream (the Village). The helipad and softball field were the result of a 1989
    agreement between the Postal Service and the Village to ease local community
    resistance to the development of the Carol Stream P&DC. However, the agreement
    does not prohibit the sale of this property. Management indicated the property will
    absorb part of the operation from the Cardiss Collins P&DC in the first phase of
    implementing an approved area mail processing8 (AMP) study.

   The Chicago NDC has 1,005,685 SF of excess land space that includes a container
    repair building used for storage. Chicago NDC management stated that other
    storage space is available at the facility. District management indicated the property


5
  Parking is a key item in determining exterior space needs. As mail volume decreases the need for parking also
decreases.
6
  Handbooks AS-503, Standard Design Criteria, and AS-504, Space Requirements, provide for customer and
employee parking spaces.
7
  We used Customer Service Variance reports to determine the earned or optimal number of retail workstations
needed for each postal facility we visited.
8
  A process for determining whether mail processing operations can be consolidated to increase efficiency and
reduce cost.



                                                         2
Land Optimization –                                                                              DA-AR-12-001
 Central Illinois District


      will absorb operations from the Gary and LaSalle, IN P&DCs, and the Rockford, IL
      P&DC if an approved AMP study is implemented.

     The Fox Valley P&DC has 921,849 SF of excess land space that includes land on
      the east and west sides of the property. Management plans to dispose of the
      property if an approved AMP study is implemented.

     The South Suburban P&DC has 404,000 SF of excess land space that includes a
      storage building for equipment on the east end of the property and a parking area
      that is used for carrier driver training. Business owners have expressed interest in
      purchasing the east end portion of the site. Management indicated the property will
      absorb part of the operation from the Cardiss Collins P&DC in the first phase of
      implementing an approved AMP study.

     The Hanover Carrier Annex has 355,205 SF of excess land space that includes
      grassland areas in the northwest and northeast sections of the site.

     The Willowbrook Carrier Annex has 281,362 SF of excess land space that includes
      land toward the rear of the site.

     The Aurora MPO has 219,540 SF of excess land space and management indicated
      the property may absorb delivery and retail from Fox Valley P&DC if a consolidation
      node study9 concept is approved.

     The Naperville MPO has 273,161 SF of excess land space that includes land on the
      north side of the property, which may potentially be sold to a business owner. Also,
      management indicated the property may absorb delivery and retail operations from
      the Fox Valley P&DC if a consolidation node study is approved.

     The Oak Lawn Moraine Valley location has 190,363 SF of excess land space that
      includes a car wash station in the employee parking area.

     The Chicago Heights site is an unused property that includes a vacant building. The
      entire site of 30,580 SF is excess land space. Management indicated the district is
      waiting for funding to demolish the building and use the space as an additional
      parking lot for the Chicago Heights MPO. However, the Post Office already has
      adequate parking for its facility based on its own policies.

To highlight excess land space in the Central Illinois District, Figure 1 depicts two Postal
Service site locations with excess land and parking space.




9
    Postal Service studies to optimize facilities such as carrier and retail stations in a geographic area.


                                                               3
Land Optimization –                                                     DA-AR-12-001
 Central Illinois District



                   Figure 1 – Examples of Excess Land and Parking Space




Source: Google Map.                               Source: Google Map.

 Fox Valley P&DC: The site has                   South Suburban P&DC: The site has
 921,849 SF of excess land space.                404,000 SF of excess land space.

Figure 3 depicts the Carol Stream P&DC location that has significant excess land, some
of which is used for non-operational purposes.

                  Figure 2 – Carol Stream P&DC Helipad and Softball Field




Source: Google Map.


 Carol Stream P&DC: The site has excess land space of 1,210,838 SF that
 includes a helipad and softball field for residents of the Village of Carol Stream.


                                             4
Land Optimization –                                                                    DA-AR-12-001
 Central Illinois District


Excess land space continues to exist in the Central Illinois District in part because
optimization efforts are pending implementation or approval. In addition, Postal Service
officials did not always know their responsibility to perform reviews of owned property as
required.10

Management maintains land space at facilities to provide customers and employees
with adequate parking space; however, they have has experienced significant
reductions in mail volume and employee staffing in recent years. From FYs 2007 to
2010, mail volume in the Central Illinois District decreased 17 percent. During the same
period, employee complement in the Central Illinois District decreased 16 percent.
Postal Service policies do not reflect current parking space needs that align with current
mail volume. The policies provide for customer parking spaces based on the number of
installed retail workstations and PO Boxes instead of the number of retail workstations
earned according to current mail volume and the number of rented PO Boxes.

Without implementing optimization, updating policies, and enhancing knowledge of
responsibilities, the Postal Service will not have the information needed to identify and
reduce excess land space. Updating policies to provide parking space based on earned
retail workstations and rented PO Boxes would better align parking space needs
with decreasing mail volume. If the Postal Service initiated disposal action for the 10
affected properties, it would have an opportunity to realize a monetary impact of at least
$42,337,385. See Appendix B for details.

Postal Service officials expressed concern over their ability to optimize small amounts of
excess space at facilities; however, we found that the Postal Service has optimized
excess exterior land space in the past through partial land sales, easement sales, and
parking lot sales. In the 1st 3 quarters of FY 2011, the Postal Service realized
$3,064,347 in partial land sales. As an example, it recorded $939,145 in net proceeds
from the partial land sale at the Boston Spa PO in September 2011. It also recorded
$750,935 in net proceeds from a partial land sale at the Fresno, CA Woodward Park
Station in May 2011. Finally, the Postal Service also realized $208,910 in easement
sales and $1,435,000 in parking lot sales. These sales total $4,708,257 and
demonstrate the Postal Service’s ability to find value in partial pieces of excess exterior
space at facilities.




10
  Per ASM 13, Section 517.34, updated April 19, 2012, postmasters, district managers, plant managers, and vice
presidents of area operations should report all excess space in Postal Service-owned or leased buildings or
undeveloped Postal Service-owned or leased sites.


                                                        5
Land Optimization –                                                      DA-AR-12-001
 Central Illinois District



Recommendations

We recommend the vice president of operations, Great Lakes Area, coordinate with
Facilities Headquarters officials to:

1. Assess excess land space and initiate actions to sell properties that are not needed.

We recommend the vice president, Facilities:

2. Revise policies regarding land space requirements to reflect current operational
   needs based on earned workstations and Post Office Boxes.

3. Amend Administrative Support Manual 13, Section 517.34 to include an annual
   review for conducting excess space, building, and land evaluations.

Management’s Comments

Management disagreed with recommendations 1 and 2 and stated that they have a
process for identifying potential land that is no longer needed and marketable.
Management viewed the process as adequate, and they intend to continue following
this process. Management agreed with recommendation 3 and stated that instead of
Postal Service Operations being responsible for the implementation of the policy,
Facilities will take the responsibility of identifying excess land. Management plans to
implement this change by December 1, 2012.

Management disagreed with the methodology used to calculate the amount of excess
land and the potential revenue that could be generated. Their major concern was that
the formula used to calculate excess space assumed that all property is alike.
Management stated that each property must be evaluated individually, taking into
consideration actual restrictions and limitations. Management stated that only two of the
10 properties identified have land that could be available for disposal, having about
170,000 SF and a market value of about $251,000.

Management also disagreed with the computation of the weighted value of land per
square foot at the sampled facilities. They stated that a third-party appraisal is the
commercially acceptable methodology for determining the value of land. Management
stated a wide variety of land uses were used for a large sampling area, not necessarily
in the area of the subject property. They also stated no adjustment appears to have
been made as to the contributing value of the improvements to determine the value of
the land. Management pointed out that there needs to be a market for potential buyers
of land. They stated that environmental issues or zoning restrictions may cause the land
to be unmarketable and the Postal Service should hold on to some land until the
economic outlook become more favorable.

Management also expressed concern that the audit did not take in consideration the
need for future flexibility as it relates to optimization and the potential for consolidations.


                                               6
Land Optimization –                                                    DA-AR-12-001
 Central Illinois District


They state that any and all excess land at gaining facilities needs to be kept to provide
that flexibility. For example, they stated that a large portion of the square footage
questioned was associated with the Carol Stream plant that is targeted as a receiving
site. They stated that in order for optimization to be successful, the receiving property
must allow for the incoming operations that will create a need for additional parking and
plant expansion. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG does not consider management’s comments responsive to the findings and
recommendations in this report. The OIG considers recommendation 1 significant and,
therefore, requires OIG concurrence before closure. We view the disagreement with this
recommendation as unresolved but do not plan to pursue it through the formal audit
resolution process and are closing recommendation 1 with the issuance of this report.

Management also disagreed with recommendation 2 to revise policies regarding land
space requirements to reflect current operational needs based on earned workstations
and Post Office Boxes. We appreciate that management has established a process to
identify potential land that is no longer needed. However, there was no assessment of
several properties in our sample until after we discussed the properties with
management. The intent of these recommendations was to emphasize the need to
expedite the assessment and disposal of excess land and to take into account declining
operational needs for land space requirements

Management agreed to recommendation 3 but their planned actions are not responsive
to the issue identified in the finding. We agree that the ASM should be updated to reflect
that Facilities should be the identifier of excess space, because they have the
experience and knowledge. However, Facilities is not planning on performing an annual
review of excess space and will perform these reviews when major operational changes
occur. We agree this will help in the indentifying excess space; however, we have
concerns that this evaluation of space will not be done regularly. We plan on reviewing
the changes in this policy at a future date.

In response to management’s concerns with our methodology, we used existing Postal
Service policy in handbooks AS-503, Standard Design Criteria, and AS-504, Space
Requirements, to develop a formula for determining the earned land space, which was
then subtracted from the total land space. Management stated that there was no
consideration for uniqueness of individual facilities. However, we visited each facility to
take into account all unique features. We also researched each facility individually and
took into account unique zoning codes, ordinances, setbacks, deed restriction, and
bodies of water. For example, at Carol Stream, Fox Valley, Naperville, Aurora, and
Hannover Park facilities we subtracted ten percent of the total excess land to account
for retention ponds. In addition, after reviewing local zoning restrictions unique to each
facility, we subtracted over 750,000 SF of excess land including over 200,000 SF at
Carol Stream facility and over 125,000 SF at Fox Valley.




                                             7
Land Optimization –                                                    DA-AR-12-001
 Central Illinois District


Management also disagreed with how we computed the weighted value of land per
square foot at the sampled facilities. While we agree that third party appraisals are a
tool to evaluate the value of the land, we believe that evaluating comparables with a
very conservative approach to the value of the land is also a valid tool. We found sales
of land and the price of land near the location of each of the facilities in our sample. Our
search for comparable land property did not include land improved with buildings. In
some cases, comparable property was not found in the same town. In those cases, we
used nearby communities for comparison. The intent of the weighted average
computation of the values was to provide a conservative estimate of potential revenue.
For example, we removed the comparable properties at two locations because the
value per square foot was so much higher than the rest of the sample. For those two
facilities, we used a more conservative figure of averaging the other location values in
our sample.

Management stated much of the excess land in our finding was not marketable. The
intent of the audit was to identify the total excess land based on current Postal Service
policy. We considered the legality for the sale of excess land at individual facilities and
found no restrictions. We do agree that there may be some difficulty marketing some of
the excess land. As a result, we removed all properties in our report that contained less
than 10,000 SF of excess space. Management insisted there should be flexibility with
the facilities targeted for expansion. We understand the need to have room for
expansion and took into account all approved consolidation efforts in our computations
and adjusted the totals accordingly. For example, we adjusted our computations to
account for 18 additional employees at the Carol Stream P&DC from the consolidation
of operations at Cardiss Collins P&DC. We also added 116 employees, 5 routes, and
5 trailers to South Suburban P&DC because they gained operations from Fox Valley,
Cardiss Collins, and Gary P&DCs.




                                             8
Land Optimization –                                                                         DA-AR-12-001
 Central Illinois District



                                   Appendix A: Additional Information

Background

The Postal Service is one of the largest real estate owners in the U.S. It owns over
8,600 facilities with more than 950 million SF of land.11 Data for these properties are
maintained in the electronic Facility Management System (eFMS).

In April 2008, the vice president, Facilities, initiated the Facility Optimization Program to
balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The process entails identifying, investigating, analyzing, and
approving interior and exterior space before executing the optimization action.

Established in May 2009, the Station and Branch Optimization and Consolidation
Initiative Program provides tools and strategies for evaluating the effectiveness of
Postal Service retail placement. This supports the 2006-2010 Strategic Transformation
Plan’s goal of improved service and increased revenue. In addition, the Postal Service
initiated the Delivery Unit Optimization process in December 2010 for relocating delivery
operations into larger offices with excess space to increase operational efficiencies.

In October 2010, the Postal Service consolidated optimization efforts to manage excess
space. The goal was to manage the excess space portfolio in one overall initiative. This
integrated effort between Facilities Headquarters and field offices used computer
modeling, analyzed equipment, and assessed local needs for space.

In June 2011, the Postal Service began the DRIVE (Delivering Results, Innovation,
Value, and Efficiency) initiative. DRIVE is a management process the Postal Service is
using to improve business strategy development and execution and is broken down into
eight priorities. The Infrastructure and Operations Optimization strategic priority includes
an initiative related to facilities management and disposal. The objectives of the
Facilities DRIVE initiative are to:12

      Generate revenue and reduce expenses by selling owned buildings, terminating
       leases, and eliminating facility operating costs.

      Reduce the inventory square footage of facilities.

In September 2011, the Postal Service announced it would initiate various AMP
feasibility studies in Illinois. Postal Service officials are considering closing or
consolidating the Fox Valley P&DC, the South Suburban P&DC, and the Chicago NDC
mail processing facilities that were included in the sites we visited. As of April 2012,
none of the delivery or retail sites in our sample were approved for consolidation. The
mail processing facilities in our sample would all be affected by approved consolidation

11
     U.S. Postal Service 2010 Comprehensive Statement on Postal Operations, page 29.
12
     U.S. Postal Service, Delivering Results, Innovation, Value and Efficiency (DRIVE), pages 1 and 4, 2011.


                                                            9
Land Optimization –                                                 DA-AR-12-001
 Central Illinois District


efforts. However, on December 13, 2011, the Postal Service announced that no PO or
mail processing facility would be closed or consolidated before May 15, 2012. This
delay was designed to allow Congress sufficient time to enact comprehensive postal
legislation. The Postal Service announced on May 17, 2012, plans to move ahead with
a modified plan to consolidate its network of 461 mail processing locations. The first
phase of activities will result in up to 140 consolidations through February 2013. Unless
the circumstances of the Postal Service change in the interim, a second and final phase
of 89 consolidations is currently scheduled to begin in February 2014. According to the
chief operating officer of the Postal Service, consolidation activities will begin this
summer at only 48 locations. Additionally, due to the volume of high-priority mail
predicted for the election and holiday mailing seasons, there will be no consolidating
activities from September through December 2012.

Through optimization efforts of land and building space, the Postal Service has the
ability to reduce excess real property by:

   Disposing of or selling property.
   Outleasing (leasing Postal Service-owned property).
   Subleasing/reassigning leased property.
   Developing/investing in real estate projects.

Management can use the same options to optimize exterior space.

Objective, Scope, and Methodology

Our objective was to identify opportunities for the Postal Service to optimize existing
land to align with the current operating environment. We judgmentally selected 10 of
156 Postal Service-owned sites in the Central Illinois District, representing about 47
percent of potential excess land space in the district. We selected nine sites, because
they were listed in the eFMS as having the most potential excess land space after
subtracting facility square footage. We selected the remaining site, because it provided
additional parking for the Chicago Heights MPO.

To accomplish our objective, we reviewed applicable policies and procedures, visited
selected sites, conducted interviews, and examined other relevant materials (such as
property records and proposed legislation). The audit team developed a questionnaire
to obtain the following data:

   Site parking and land space square footage.
   Number of carriers and delivery routes.
   Number of postal vehicles assigned.
   Number of self-service units.
   Number of official parking spaces.
   Number of retail workstations.
   Number of PO Boxes.




                                           10
Land Optimization –                                                                   DA-AR-12-001
 Central Illinois District


    Number of firm callers13 and large firm mailers14 mailing at the same time.
    Number of peak hour employees.15

We requested copies of the site's Web Box Activity Tracking System (WebBATS)
Monthly Summary Report to confirm the number of rented PO Boxes. We verified the
number of retail workstations, PO Boxes, carrier routes, self-service units, firm
callers, philatelic sales centers, Express Mail ® acceptance units, and Express Mail pick-
up points during site visits against data from various Postal Service databases. If there
were discrepancies, we used a conservative approach by subtracting the
calculated earned customer parking from total customer parking. All earned customer
parking was based on earned retail workstations; rented PO Boxes; and Postal Service
policy.16

We verified the number of postal vehicles assigned and peak hour on-duty employees,
additional employees used during tour turnover, and the number of carrier routes and
large volume firm mailers that mail at the same time during site visits against data from
various Postal Service databases. When there were differences, we used a
conservative approach by subtracting calculated earned employee parking from
total employee parking. All earned employee parking was based on Postal Service
policy.17

After determining the square footage of excess parking spaces (employee and
customer), we calculated excess land by deducting the square footage of facilities and
platform docks, designated vehicle maintenance facility areas, earned parking, and local
government required setbacks and landscaping from total site square footage. We also
reduced excess land by 10 percent of each site’s square footage for facilities that have
retention ponds and determined the remaining square footage as excess land.

We conducted this performance audit from June 2011 through August 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 31, 2012, and included their
comments where appropriate.

We assessed the reliability of eFMS data by comparing them to county records, deeds,
lease documents, and on-site measurements. While we noted discrepancies between
the data sources, we determined the data were sufficiently reliable for the purposes of

13
   Firms that receive large volumes of mail and pick it up at a delivery unit.
14
   Firms that send large volumes of mail and drop it off at an acceptance unit.
15
   The greatest possible number of employees on duty at a facility.
16
   Handbook AS-503, Section 1-2.4, Parking and Drives (July 17, 2010); Handbook AS-504, Section 324; and
Handbook RE-4, Standards for Facility Accessibility, Section 502, Parking Spaces (March 2005).
17
   Handbook AS-503, Section 1-2.4; Handbook AS-504, Section 324; and Handbook RE-4, Section 502.


                                                      11
Land Optimization –                                               DA-AR-12-001
 Central Illinois District


this report. We assessed the reliability of WebBATS data by comparing them to the
number of PO Boxes rented during site visits.

Prior Audit Coverage

No audits were conducted examining excess land space within the past 3 years.




                                          12
Land Optimization –                                                                     DA-AR-12-001
 Central Illinois District



                                    Appendix B: Monetary Impacts

     Recommendation                             Impact Category                                 Amount
                                                                       18
           1                                 Increased Revenue                                   $42,337,385

We based the monetary impact calculations on the weighted averages of the prices per
square foot and excess land space for the sampled locations (see Table 2). The audit
team used the final sale price for sold land sites and the asking price of land sites for
sale to develop the value of the weighted average price per square foot for each city in
the sample. In cases where little or no land was listed as sold or for sale in the sampled
cities, the audit team used neighboring cities to provide data elements. To calculate the
weighted average of excess land space for each sample location the audit team divided
the identified excess land space at each location by the overall identified excess land
space. The final monetary impact was developed by multiplying the weighted average
price per square foot for each city by the excess land for each of the sampled locations.


                             Table 2 – Calculation of Monetary Impact

                                                          Dollar
                                                          Value
                                                          Per
                                      Site Square         Square    Excess      Monetary Impact
Property Name                         Footage             Foot      Space       Rounded
Carol Stream P&DC                         2,746,892           $9.75   1,210,838       $11,805,671
Chicago NDC                               2,054,000         $16.30    1,005,685        16,392,666
Fox Valley P&DC                           1,650,488           $6.18     921,849         5,697,027
South Suburban P&DC                       1,182,985           $6.60     404,000         2,666,400
Hanover Carrier Annex                       592,000           $6.72     355,205         2,386,978
Willowbrook Carrier Annex                   460,637         $11.51      281,362         3,238,477
Aurora MPO                                  458,175           $6.18     219,540         1,356,757
Naperville MPO                              441,771           $8.54     273,161         2,332,795
Oak Lawn Moraine Valley                     382,000         $16.30      190,363         3,102,917
Chicago Heights                              30,580           $6.30      30,580           192,654
(Additional Parking)
Total                                      9,999,528                        4,892,583               $49,172,340

Less National Industrial                                                                              $6,834,955
Vacancy Rate of 13.9%
Final Monetary Impact                                                                               $42,337,385
Source: OIG.




18
  Increased revenue from existing functions or revenue generated from new sources. Recommendations for the
Postal Service to expand a current service or develop a new revenue-generating product line or service would be
examples of increased revenue.




                                                        13
Land Optimization –                                                  DA-AR-12-001
 Central Illinois District


The monetary impact for the Chicago NDC and Oaklawn Moraine facilities were
calculated separately, because their averages inflated the combined average price. The
weighted average values of those locations were lowered from $43.46 and $33.48,
respectively, to $16.30. This is the average value per square foot of all 10 sites.

Before calculating the total monetary impact, we reduced the identified excess land
space by 753,553 SF to account for local government requirements, such as setbacks
and landscaping. Additionally, we deducted 10 percent of the total monetary impact to
account for unusable land, such as sidewalks and retention ponds. We obtained the
square footage of the retention ponds from two sample locations. The retention ponds’
size compared to the total site square footage of the Carol Stream and Fox Valley sites
was 8.5 percent and 12.1 percent, respectively. We used the average size (10 percent)
of the two sites’ retention ponds to reduce the monetary impact for those facilities with
retention ponds. Finally, the audit team deducted an additional 13.9 percent — the
National Realty Association’s national industrial commercial property vacancy rate — to
account for a non-success factor.




                                           14
Land Optimization –                                              DA-AR-12-001
 Central Illinois District


                             Appendix C: Management’s Comments




                                            15
Land Optimization –               DA-AR-12-001
 Central Illinois District




                             16
Land Optimization –               DA-AR-12-001
 Central Illinois District




                             17
Land Optimization –               DA-AR-12-001
 Central Illinois District




                             18
